  AUDIT OF COMPLIANCE WITH STANDARDS
 GOVERNING COMBINED DNA INDEX SYSTEM
ACTIVITIES AT THE TARRANT COUNTY MEDICAL
EXAMINER’S OFFICE TARRANT COUNTY, TEXAS




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


        Audit Report GR-60-11-014
             September 2011
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
    TARRANT COUNTY MEDICAL EXAMINER’S OFFICE
              TARRANT COUNTY, TEXAS


                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tarrant County
Medical Examiner’s Office Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from June 2009 through May
2011. The objectives of our audit were to determine if: (1) the Tarrant
County Medical Examiner’s Office Laboratory was in compliance with the
NDIS participation requirements; (2) the Laboratory was in compliance with
the Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

      Our review determined the following.

      •   The Laboratory was in compliance with the NDIS participation
          requirements we tested. We found that CODIS access is properly
          safeguarded, Laboratory personnel requirements are being fulfilled,
          policies and procedures related to NDIS are available and followed
          by Laboratory staff, and the retention of personnel records are kept
          indefinitely.

      •   We found that the Laboratory was in compliance with the QAS we
          tested. We concluded that the Laboratory’s policies and procedures
          related to sample security, sample processing, and sample
          retention were in compliance with the QAS. In addition, we looked
          at the Laboratory’s annual reviews from the past 2 years. These
          reviews contained no findings.

      •   The Laboratory’s 100 forensic DNA profiles that we reviewed were
          complete and accurate. Seven profiles were deleted by the
          Laboratory prior to our review as the Laboratory determined they
          did not meet the NDIS requirements for inclusion. The Laboratory
          deleted two additional profiles as a result of our review. The
          remaining 91 profiles we reviewed were allowable for inclusion in
          NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we



                                     - ii -
requested a written response to a draft of our audit report from the FBI and
the Laboratory.




                                    - iii -
                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 3
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7
   I. Compliance with NDIS Participation Requirements ............................ 7
   II. Compliance with Quality Assurance Standards ................................ 9
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 11

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 16

APPENDIX II: AUDIT CRITERIA ...................................................... 19
   NDIS Participation Requirements ...................................................... 19
   Quality Assurance Standards ........................................................... 20
   Office of the Inspector General Standards ......................................... 21

APPENDIX III: FBI RESPONSE TO DRAFT REPORT .......................... 23

APPENDIX IV: TARRANT COUNTY RESPONSE TO DRAFT REPORT ... 24

APPENDIX V: ACTIONS NECESSARY TO CLOSE REPORT .................. 25
                                 INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tarrant County
Medical Examiner’s Office Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit covered the period from June 2009 through May 2011. The
objectives of our audit were to determine if: (1) the Tarrant County Medical
Examiner’s Office Laboratory was in compliance with the National DNA Index
System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with



       1
         DNA, or deoxyribonucleic acid is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2
Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.




      2
          42 U.S.C.A. § 14132 (2006).


                                        -2-
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                              -3-
National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. NDIS contains the following eight searchable
indices:

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 3

      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 4

      •   Detainee Index contains profiles from non-U.S. persons detained
          under the authority of the United States and required by law to
          provide a DNA sample for analysis and entry into NDIS.

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 5




      3
        The phrase “qualifying offenses” refers to local, state, or federal crimes that
 require a person to provide a DNA sample in accordance with applicable laws.
      4
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
      5
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.


                                           -4-
      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a

                                     -5-
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quality of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       The Laboratory is a Local DNA Index System (LDIS) Laboratory in the
state of Texas. The Medical Examiner’s Office has jurisdiction over Tarrant,
Parker, Denton, and Johnson counties with a combined population exceeding
2 million people. In addition, the Laboratory is a fee-for-service Laboratory
serving close to 100 agencies in 30 counties in Texas and throughout the
United States. The Laboratory began using CODIS in 1996 and DNA in the
processing of criminal case evidence in 2000. The Laboratory analyzes only
forensic DNA samples and does not outsource the analysis of forensic
profiles. The Laboratory is accredited by the American Society of Crime
Laboratory Directors/Laboratory Accreditation Board and was first accredited
in June 1999. The Laboratory’s next accreditation renewal is due in June
2014.




      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                             -6-
               FINDINGS AND RECOMMENDATIONS

       I. Compliance with NDIS Participation Requirements

       The results of our testing of compliance with NDIS Standards did
       not identify any instances of noncompliance with the NDIS
       participation requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU
and the NDIS Procedure Manual, establish the responsibilities and
obligations of laboratories that participate in the CODIS program at the
national level. The MOU describes the CODIS-related responsibilities
of both the Laboratory and the FBI. The NDIS Procedure Manual is
comprised of the NDIS operational procedures and provides detailed
instructions for laboratories to follow when performing certain
procedures pertinent to NDIS. The NDIS participation requirements
we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that CODIS access is
properly safeguarded, Laboratory personnel requirements are being fulfilled,
and policies and procedures related to NDIS are available and followed by
Laboratory staff. These results are described in more detail below.

   •   NDIS requires that CODIS be physically and electronically safeguarded
       from unauthorized use and only accessible to limited approved
       personnel. Because of space limitations, the Laboratory’s one CODIS
       workstation and server are in a separate building from the DNA
       Laboratory although the buildings are nearby on the same campus.
       The building housing the workstation has 24-hour monitored camera
       security and a receptionist who admits and logs in visitors during
       normal business hours. Outside business hours, employees use an
       access card and a code for entry. Visitors are escorted at all times
       within this building. The workstation is located in the Trace Analysis
       Laboratory which is locked at all times and only CODIS users are
       allowed to use this workstation. All users have their own CODIS user
       account and password, and the computer screen locks after
       10 minutes of inactivity. The CODIS Administrator makes backups
       weekly and a monthly backup that is transferred to a secure off-site
       location.



                                     -7-
  •   NDIS operational procedures require that CODIS users be aware of the
      NDIS procedures, know where to find them, and have access to them.
      We confirmed with two of the Laboratory’s CODIS users that they were
      aware of the procedures. We verified that Laboratory staff knew
      where to find and access the procedures in the Laboratory.

  •   CODIS users are required to complete annually DNA Records
      Acceptance training. We verified with the FBI that all current CODIS
      users had completed the web-based training.

  •   The FBI requires that the Laboratory submit fingerprint cards,
      background information, CODIS user information, and other
      appropriate documentation regarding CODIS users. We verified that
      the Laboratory submitted all required information for each CODIS user
      to the FBI.

  •   NDIS requires that participating Laboratories maintain personnel files
      for CODIS users, including proficiency testing, training, and other
      reports in accordance with requirements of Federal/State/Local law,
      policy, and/or standards established by the applicable accrediting
      organization. According to Laboratory policy and officials, personnel
      records on Laboratory personnel concerning proficiency testing,
      qualifications, training, and skills are kept indefinitely. As a result, we
      determined the Laboratory is conforming with this NDIS requirement.

  •   NDIS procedures require a match confirmation process when matches
      are identified in the CODIS system. We judgmentally selected a
      sample of five NDIS matches and found the Laboratory to be timely in
      match confirmation requests, match confirmations, confirmation
      dispositions, and the notification to investigators of forensic matches.

Conclusion

       For the areas we tested, we determined that the Laboratory was in
compliance with NDIS participation requirements. We did not identify any
deficiencies in safeguarding CODIS, annual training forms, personnel
records, or NDIS matches. We made no recommendations concerning our
review of NDIS participation requirements.




                                      -8-
   II. Compliance with Quality Assurance Standards

       We reviewed the Laboratory’s compliance with the FBI’s quality
       assurance standards (QAS) by examining the two most recent
       annual reviews, and the Laboratory’s policies and procedures for
       sample processing, sample security, and sample retention. 7 We
       did not identify any instances of non-compliance with these
       standards.

      During our audit, we considered the Forensic QAS issued by the FBI.
These standards describe the quality assurance requirements that the
Laboratory must follow to ensure the quality and integrity of the data it
produces. We also assessed the two most recent QAS reviews that the
laboratory underwent. 8 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

       We found that the Laboratory complied with the Forensic QAS tested.
Specifically, we found the Laboratory is reviewed annually, has sufficient
building and evidence security, and has appropriate quality assurance
policies. These results are described in more detail below.

   •   The QAS requires laboratories to undergo an annual review, including
       an external review at least every 2 years. We determined that the
       Laboratory complied with this requirement by undergoing an external
       review for each of the past 2 years.

   •   We obtained the two most recent external annual reviews for the
       Laboratory. We determined that for both reviews, the required FBI
       audit document was used. There were no instances of noncompliance
       in either review so no corrective action was required. We also
       determined that all reviewers had completed the FBI’s required QAS
       training.

       7
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                           -9-
  •   For us to rely on the external review reports, we requested that
      external reviewers confirm they were independent at the time of the
      review. We received completed reviewer independence statements
      from the reviewers participating in the external reviews.

  •   We verified that the entrances to the building that house the
      Laboratory are properly secured and the Laboratory itself is controlled
      with a key-coded door and entrance cards for the Laboratory analysts.
      These cards and key pad combinations are documented by the
      Laboratory’s Director. The building housing the CODIS server and
      workstation has 24-hour security and a receptionist who admits and
      logs in visitors. In both buildings visitors are escorted at all times.
      Overall security at the buildings housing the Laboratory and the CODIS
      server and workstation appear to be in compliance with the QAS
      requirements that we tested.

  •   The integrity of physical evidence is maintained by the Laboratory in
      accordance with the QAS standards. Specifically, the Evidence
      Custodian uses an information management system to track evidence.
      Each item of evidence is given a unique case number and a description
      of the specimen. To ensure accuracy of data loaded into the database,
      the Laboratory technically reviews all case files and completes a
      checklist for each sample prior to uploading it to CODIS.

  •   The QAS requires laboratories to perform evidence examination, DNA
      extraction, and polymerase chain reaction (PCR) setup at separate
      times or in separate spaces. In addition, the QAS requires that these
      processes do not occur in the same room as amplification. We
      determined that the Laboratory conformed to these requirements.

  •   The Laboratory properly stores forensic samples in secure areas and
      retains the samples indefinitely. Specific to forensic samples, prior to
      processing an analyst takes cuttings. These cuttings are kept
      indefinitely and the evidence from which the samples are taken is
      returned to the submitting agency.

Conclusion

      Based on our analysis of the Laboratory’s most recent two QAS,
reviews as well as Laboratory practices for sample security, we conclude that
the Laboratory is in compliance with the FBI’s QAS we tested. We made no
recommendations concerning our review of Quality Assurance Standards.


                                    - 10 -
     III. Suitability of Forensic DNA Profiles in CODIS Databases

      We reviewed 100 DNA profiles in the Laboratory’s forensic
      CODIS database and determined that all were complete and
      accurate. The Laboratory had removed seven profiles from NDIS
      before our audit began and we determined that an additional two
      profiles should be deleted from NDIS.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. To test the completeness and accuracy of each profile, we
established standards that require a profile include all the loci for which the
analyst obtained results, and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

       We selected a sample of 100 profiles out of the 1,220 forensic profiles
the Laboratory had uploaded to NDIS as of May 18, 2011. The Laboratory
determined that seven of these profiles were unallowable for inclusion in
NDIS and removed them before our audit field work began. We agreed with
the Laboratory’s determinations. Of the remaining 93 profiles, we
determined an additional 2 were unallowable for upload to NDIS. The
remaining 91 profiles sampled were complete, accurate, and allowable for
inclusion in NDIS. The specific exceptions are explained in more detail
below.


                                    - 11 -
Unallowable Profiles

     Our review resulted in the identification of two unallowable profiles.
The Laboratory had deleted seven other unallowable profiles before our audit
began.

      In December 2006, the FBI issued a flowchart with eight general
principles to assist DNA analysts in determining if a profile is eligible for
upload to NDIS. The unallowable profiles were attributed to the following
three general principles.

       FBI General Principle number 2 requires that a profile must be derived
from evidence from a crime scene. General Principle number 4 states that a
profile must be attributable to a putative perpetrator. General Principle
number 8 states that if a suspect’s profile can reasonably be expected to be
on an item that is at the crime scene or is part of the crime scene
independent of the crime, then it is probably not a Forensic Unknown. This
would generally be considered a Suspect profile and is therefore not
allowable at NDIS.

      The following table describes the nine unallowable profiles that the
Laboratory either deleted before our audit began or while we were reviewing
the profiles and the reasons they were unallowable in NDIS.

             Nine Unallowable Profiles Deleted from NDIS

                         FBI General          FBI General
                           Principle            Principle      FBI General
                          Number 2             Number 4          Principle
                        (Crime Scene           (Putative        Number 8
  Sample Number           Evidence)           Perpetrator)      (Suspect)
     CA-06                                                           X
     CA-19                   X
     CA-24                                                          X
     CA-25                                                          X
     CA-46                                         X
     CA-72                                         X
     CA-90                                         X
     CA-97                                                          X
     CA-99                                                          X
 Source: OIG Analysis

      Each of these profiles was uploaded to NDIS prior to the FBI’s General
Principles becoming available for distribution to laboratories. Laboratory

                                     - 12 -
personnel provided documentation that the unallowable profiles had been
deleted from NDIS. The profiles are described in more detail below.

     Sample Number CA-06

     This profile was from a homicide case and the specimen was a blood
     stain from the suspect's T-shirt. However, the T-shirt was found in the
     trunk of the defendant's car and the profile matched the known profile
     of the suspect. The Laboratory deleted this profile before our field
     work because the specimen was from the suspect's own shirt and his
     DNA could be expected to be there. We agreed with the Laboratory’s
     decision to delete this profile.

     Sample Number CA-19

     The crime was the sexual assault of a minor. The specimen came from
     an envelope that had been sent to the victim prior to the assault by
     the suspect and matched the suspect’s profile. This profile was not
     allowable because it was not part of the crime scene. The Laboratory
     deleted this profile during our fieldwork.

     Sample Number CA-24

     This was a homicide case and the specimen was a swab taken from
     the hand of the suspect and matched the suspect’s known profile. The
     Laboratory deleted this profile before our field work because it came
     from the suspect's body. We agreed with the Laboratory that this
     profile should be deleted.

     Sample Number CA-25

     The profile was developed from scrapings from a bandana. The case
     file information revealed that a witness stated he/she saw the suspect
     wearing the bandana during an aggravated robbery. However, the
     bandana was given to authorities by a friend of the suspect several
     days later. The profile matched the suspect. The profile is
     unallowable because it was not taken from the crime scene and could
     have contained the suspect’s DNA independent from the crime. The
     Laboratory deleted the profile during our fieldwork.

     Sample Number CA-46

     This crime was the burglary of a vehicle. The specimen came from a
     soda can found near where the vehicle was recovered. Officials at the

                                  - 13 -
Laboratory tried to contact the investigator on the case to identify
more information and more closely tie the can to the crime scene and
putative perpetrator, but investigators could not give additional
information and were no longer pursuing the case. The Laboratory
deleted this profile from NDIS before our field work because it could
not determine whether the can came from the crime scene and the
information in the case file was not sufficient to attribute the profile to
the putative perpetrator.

Sample Number CA-72

This was the burglary of vending machines in an elementary school.
The specimen came from a soda can found near the vending
machines. However, there was not enough information in the case file
to determine that the can was attributable to the putative perpetrator,
and not a person unrelated to the crime. The Laboratory contacted the
investigator, but the investigator could not provide additional
information that was sufficient to maintain the profile at NDIS. As a
result, the Laboratory deleted this profile prior to our field work.

Sample Number CA-90

The crime was the burglary of a building. The specimen came from a
soft drink bottle near the crime scene. Officials at the Laboratory
contacted the investigator who said he could not be certain the bottle
was left by a perpetrator. The investigator said he was no longer
pursuing the case. As a result, the Laboratory deleted the profile prior
to our field work.

Sample Number CA-97

The specimen was a cutting taken from jeans of the suspect of a
capital murder case. The jeans were taken from the suspect's
residence, not the crime scene, and the profile developed from the
sample matched the suspect’s known profile. The Laboratory deleted
this profile before our field work because the evidence was not taken
from the crime scene and the suspect's DNA could have been on the
jeans independent of the crime.

Sample Number CA-99

This case was an aggravated robbery. The profile was developed from
scrapings from a cap that was retrieved from the suspect’s vehicle
several hours after the crime. According to the case file, a witness

                               - 14 -
      saw the perpetrator wearing a cap with the same description during
      the crime. The profile developed from the DNA found on the cap
      matched that of the suspect. The Laboratory deleted this profile
      before our field work because the suspect's DNA could be expected to
      be on his own cap and the cap was not taken from the crime scene.

Conclusion

      For the 100 forensic profiles we tested, the Laboratory had deleted 7
from NDIS before our audit began. We agreed with the Laboratory’s
determinations for these profiles. During our audit field work, in discussion
with Laboratory officials, we identified two additional profiles that the
Laboratory agreed to delete. The remaining 91 profiles were complete,
accurate, and allowable for inclusion in NDIS. In addition, all of the
unallowable profiles were uploaded prior to additional guidance the FBI
released in December 2006. As a result, we made no recommendations
concerning our review of Forensic DNA profiles.




                                    - 15 -
                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from June 2009 through May,
2011. The objectives of the audit were to determine if: (1) the Laboratory
was in compliance with the National DNA Index System (NDIS) participation
requirements; (2) the Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) the Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. To accomplish the objectives of the audit,
we:

  •   Examined two external Laboratory QAS review reports and supporting
      documentation for corrective action taken, if any, to determine whether:
      (a) the Laboratory complied with the QAS, (b) repeat findings were
      identified, and (c) recommendations were adequately resolved.

      In accordance with the QAS, the internal and external laboratory review
      procedures are to address, at a minimum, a laboratory’s quality
      assurance program, organization and management, personnel
      qualifications, facilities, evidence control, validation of methods and
      procedures, analytical procedures, calibration and maintenance of
      instruments and equipment, proficiency testing of analysts, corrective
      action for discrepancies and errors, review of case files, reports, safety,
      and previous audits. The QAS require that internal and external reviews
      be performed by personnel who have successfully completed the FBI’s
      training course for conducting such reviews.




                                     - 16 -
       As permitted by Government Auditing Standards 7.42 (2007 revision),
       we generally relied on the results of the Laboratory’s external
       laboratory reviews to determine if the Laboratory complied with the
       QAS. 9 In order to rely on the work of non-auditors, Government
       Auditing Standards require that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory reviews.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and convicted offender DNA
       samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 5 of 43 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of 43. NDIS matches as of May 31,
       2011. The sample was judgmentally selected to include both case-to-
       case and case-to-offender matches. This non-statistical sample does
       not allow projection of the test results to all matches.

       Reviewed the case files for selected forensic DNA profiles to determine if
       the profiles were developed in accordance with the Forensic QAS and
       were complete, accurate, and allowable for inclusion in NDIS.


       9
          Further, as noted in Appendix II, we performed audit testing to verify Laboratory
compliance with specific QAS that have a substantial effect on the integrity of the DNA
profiles uploaded to NDIS.


                                           - 17 -
      Working in conjunction with the contractor used by the FBI to maintain
      NDIS and the CODIS software, we obtained an electronic file identifying
      the 1,220 (STR) forensic profiles the Laboratory had uploaded to NDIS
      as of May 18, 2011. We limited our review to a sample of 100 profiles.
      This sample size was determined judgmentally because preliminary
      audit work determined that risk was not unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                    - 18 -
                                                                     APPENDIX II


                               AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the QAS. However, we did not test for compliance with
elements that were not applicable to the Laboratory. In addition, we
established standards to test the completeness and accuracy of DNA profiles
as well as the timely notification of DNA profile matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements:

      •    DNA Data Acceptance Standards
      •    DNA Data Accepted at NDIS
      •    QAS Reviews
      •    Confirm an Interstate Candidate Match
      •    General Responsibilities
      •    Initiate and Maintain a Laboratory’s Participation in NDIS
      •    Security Requirements
      •    CODIS Users
      •    CODIS Administrator Responsibilities
      •    Access to, and Disclosure of, DNA Records and Samples
      •    Upload of DNA Records
      •    Expunge a DNA Record
      •    The FBI Flowchart: A Guide to Determining What is Allowable in
           the Forensic Index at NDIS 10




      10
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
 from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
 CODIS Administrator’s Handbook and has been provided to laboratories in forums such as
 CODIS conferences.

                                        - 19 -
Quality Assurance Standards

      The FBI issued two sets of QAS: QAS for Forensic DNA Testing
Laboratories, effective July 1, 2009 (Forensic QAS); and QAS for DNA
Databasing Laboratories, effective July 1, 2009 (Offender QAS). The
Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of the database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data ae reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The

                                     - 20 -
      annual audits shall occur every calendar year and shall be at least 6
      months and no more than 18 months apart.
      At least once every 2 years, an external audit shall be conducted by an
      audit team comprised of qualified auditors from a second agency(ies)
      and having at least one team member who is or has been previously
      qualified in the laboratory’s current DNA technologies and platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.


  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being


                                     - 21 -
    matched and, therefore, the potential to link convicted offenders to a
    crime or to link previously unrelated crimes to each other may be lost;
    or (2) result in a false match that would require the unnecessary use
    of laboratory resources to refute the match.


•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                 - 22 -
                                                                                   APPENDIX III


               FBI RESPONSE TO DRAFT REPORT





                                                    U.S. Dep.rtmen.t of Justice


                                                    Federal BUTeau of Invcitigation


                                                    WashingtOn, D. C. 20535-0001


                                                     August 24, 2011



David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
21120 Lincoln Street. Suite 1500
Denver, CO 80203


Dear Mr. Sheeren:

              Your memorandum to Director Mueller forwarding the draft audit report for the
Tarrant County Medical Ex~iner's Office, Fort Worth, Texas (Laboratory), has been referred. to
me for response.

               Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI' s Memorandwn of Understanding and Quality Assurance S/andards for
DNA res/ing LahoraJories. The CODIS Unit reviewed the draft report and since it appears that
the Laboratory is in compliance with NDIS participation requirements, the CODIS Unit has no
significant comments to provide about the draft report.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                     Sincerely,
                                                    {Ui<.v;(.~-u/""
                                                    Alice R.lsenberg~Ph.D - (j
                                                     Section Chief
                                                     Biometrics Analysis Section
                                                     FBI Laboratory




                                              - 23 ­
                                                                                                       APPENDIX IV


                TARRANT COUNTY RESPONSE TO DRAFT REPORT

                                                                 •. ~'(;)U~"



        M~,'   A K"""", 1.1.0
  Cl'>id Dep.,y M,di,ol Eaminc,
                                                               (~~)
                                                               .~.
                                                                .... .. ....
                                                                     : "':.:
                                                                                                            $u"n R. Howe. Pt..D .
                                                                                                          O,rec.o. , Ctj"' . I.... boro'n'y

         G",y l Sid",. D O                                                                               Rotc, )o.4e, .. II. D.D.S .. 1. 0.
      1l<I"Uy M,d,,,.1 E•• ",ine,
                                               OFFICE OF CHIEF MEDICAL EXAMINER                       l),,<c''''. l1 .m," Ide"lifo"., io. l.b
     lloyd Wh ,". M.D .. Ph.D.                             AND PORENSIC LABORATORIES                      n Otye Ie Poi,i ... ,,1 B.A
      D<p.' y Mo,ho.1 En ,ni.e,                  TARR A.NT COUNTY MBUICAJ... EXAM INER'S DISTRICT              B.,."." M ..
                                                                                                                        ono,
                                            SERVING TAR RANT. DENTON, JOHNSON AND PARKBR COUNTIRS
         Shiprnt Boo. M O.                                                                                 Rube" O. Johnson. Ph D.
                                                             200 PELlKS GWOZDZ PlACB                          Chi.fTo" e<>l<>si u
      D<por'Y Medic.l En",i.c.
                                                           PORT WORTIi. TEXAS 76104_4'} 1'}
       R"".ld L S'"ler, M S                                       (911),}"l:O.5700                        Mich •• , V. Floyd. 8 S.
"T« h,,,,., .r.d AJmi.i" ", i~. 0 ".,,<><                      P .,(B I1 j910_Hll                     Cbi.r fot< • • ic D< ~' h In.·.. ';!.,,,,
          l.,r.d. F. An<k"""                                 Ninrn Peen.I " ";, M.D.                            Trod "T. Wih""
          u.,~"v.     A." i" ....                            Chief Mediul Bu rnine .                  Di,« '",. M<:>r£u< ' nd La\> Serv,.e.
      Publre Inl".,.."ion Offiur



               Mr. David Sheeren
               Regional Audit Manager
               US Depal1mo! nt of Juslice
               Office of the Inspector Go!nera l
               Denver Region<l l Audit Office
               1120 l incoln, Suite 1500
               Delwer, CO 80203

               July 27, 2011

               Thank yO\1 so much for you r le ller of July 25 , 201 1, and the timely producti on of the draft 201 1
               ore audit repo11.
               In response, r h,we one clarificalion and an update. The section "Laboratory [nformal ion" on
               page 6 indicales that the laboratory began tlsitlg " ... DNA in thc processing of criminal case
               evidence in 2000." The year 2000 is the dale d uring which the laboratory began using STR
               lechno logy and uploading pro tiles to NDl S.

               1 order to improve the efficiency of our processes in do!terminillg the source of submi ned
                0
               evide)lCe and its re lation to a crime scene, we have developed a queslionnaire conce rn ing
               evidenti ary items for submitting agencies. The form will be put into use in the labora lOry in lhe
               neM futuro!.

               [Iwas a pkasure to work with you d uring the ti me of Ule aud it, and thank you for the opportunil Y
               10 participare in (hi s impol13nt review proco!ss. If there is any add ilio llal infonnal ion th :lI you
               requ ITe, please let me kno w.




               Dr. S usan Howe
               Cri me Labora1ory Direc(Qr




                                                                        - 24 ­
                                                             APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
         ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE REPORT

     The OIG provided a draft of this audit report to both the Tarrant
County Medical Examiner’s Office Laboratory and the FBI. The Tarrant
County Medical Examiner’s Office Laboratory’s response is incorporated in
Appendix III of this final report. The FBI’s response is incorporated in
Appendix IV of this report. The following provides the OIG analysis of the
responses and summary of actions taken to close the report.

Summary of Actions Taken to Close the Report:

Based upon our review, the Office of the Inspector General made no
recommendations to the Tarrant County Medical Examiner’s Office
Laboratory.




                                   - 25 -
